U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

December 21, 2020

Ronald Herron v. USA,
S.Ct No. 20-6428

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November
17, 2020 and placed on the docket on November 24, 2020. The government’s response is due on
December 28, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including January 27, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6428
HERRON, RONALD
USA

MARSHALL ARON MINTZ
MINTZ & OPPENHEIM, LLP
260 MADISON AVENUE
18TH FLOOR
NEW YORK, NY 10016
212-447-1800
MMINTZ@MINOPP.COM

